PBX and Analog Lines Security
        Assessment

  U.S. SECURITIES &
EXCHANGE COMMISSION




                March 31, 2000




       Prepared by
  Deloitte & Touche LLP
Enterprise Risk Services



          -1-
1 Executive Summary

1.1 Overview
Deloitte & Touche LLP (D&T) was engaged to assist the Office of the Inspector General (OIG)
of the Securities and Exchange Commission (SEC) in evaluating the effectiveness of security
controls over their telecommunications infrastructure, consisting of the Private Branch Exchange
(PBX) and analog telephone lines (fax machines, computer dial-up, etc).

The overall objective of the review was to determine the degree of protection the SEC’s existing
security controls provide their telecommunications system against “hostile” threats from the
public and from within the SEC. The objective was accomplished by performing a two-phased
assessment: 1) Manual evaluation of the PBX and 2) Automated and manual evaluation of all
identified analog telephone lines.

The scope of the review included the SEC headquarters in Washington, DC, and the Operations
Center (and Annex) in Alexandria, VA. Testing activities were performed between September
21 and November 19, 1999 at the SEC Headquarters located in Washington, DC and external
D&T locations. Analog telephone line testing was limited to the telephone numbers provided by
Bell Atlantic and the SEC’s security group. All testing was coordinated through Nelson Egbert,
Office of the Inspector General.


1.2 Testing Approach
The D&T project team performed controlled tests to gather information about potential
vulnerabilities and exposures within SEC’s telecommunications environment. While the
objective of these tests was to simulate potential threats faced by SEC, limitations existed
relative to testing. For instance, ethical considerations and legal consequences prevented D&T
from exploring telecommunications systems of third parties that provide telephone or data
connectivity to SEC. As such, D&T confined testing to only those telephone numbers and PBX
equipment owned by SEC. D&T realizes that real world attackers may not allow these
limitations to prevent them from attempting a variety of other attack methods. After evaluating
the results of testing performed, areas of concern and corresponding recommendations to
mitigate potential risks were documented (Refer to Section 2 – Detailed Testing).

1.2.1   Private Branch Exchange (PBX)
To evaluate the effectiveness of security controls over the PBX environment the D&T project
team:
• Interviewed telecommunications personnel and reviewed relevant documentation in order to
   understand how the PBX is configured and operated at the SEC.
• Generated and reviewed on-line reports (with the assistance of telecommunications
   personnel) to confirm configuration parameters and security control settings identified during
   the interview process.
• Toured the data center where the PBX equipment is located to observe the physical security
   controls.


                                              -2-
1.2.2   Analog Telephone Lines
To evaluate the effectiveness of security controls over the analog telephone lines the D&T
project team:
• Obtained an informal inventory of analog telephone lines that had been developed by the
    Information Security department.
• Obtained a formal inventory of analog telephone lines from Bell Atlantic, generated from
    billing records.
• Interviewed telecommunications personnel to identify any telephone exchanges that may not
    be assigned or that are assigned to unauthorized individuals.
• Utilized a war dialer in an attempt to establish a connection via each analog telephone
    number identified in the known universe of telephone numbers.
         Telephone numbers with modem tones were further investigated to identify what type of
         system was connected to (computer, FAX machine, router, terminal server, etc.)
         Attempts were made to gain access into systems using basic methods (e.g., common User
         IDs and passwords, known exploits). NOTE: Brute force methods were not employed for
         this review due to scope limitations and the specific requirement of the OIG to not disrupt
         legitimate business activity (e.g., locking out users).


1.3 Summary of Assessment
The results of test procedures performed revealed that many effective controls and procedures
exist to assist in safeguarding the PBX and analog telephone lines. For instance:

•   The PBX system is configured to disable the communications port after three unsuccessful
    login attempts.
•   The PBX room is physically secure within the data center in the basement of the SEC
    headquarters building. Access to the data center is controlled via card access. Access to the
    PBX room is through a separate combination lock (combination is only known by
    telecommunications personnel).
•   The PBX utilizes redundant communication circuits with separate vendors in order to
    eliminate a single point of failure.
•   The PBX has built-in redundancy in the form of multiple control units.
•   The majority of systems that can be connected to via analog telephone lines utilize an
    authentication mechanism to prevent an attacker from gaining easy access into the SEC’s
    internal network.

However, numerous areas were identified where security controls and procedures require
strengthening to ensure the integrity of the PBX and of internal systems. Specific areas of
concern include:


•   Certain security controls appear to be deficient in protecting the PBX from remote access
    connections including:

           Area                         Issue                            OAPM Response

                                                -3-
     Auditing &          Periodic reports are not generated       Reports are not generated due to an
     Monitoring          and/or reviewed in order to detect       IG/OGC request to shut down the SMDR
                         unusual or unauthorized activity.        sub-system that generates the
                                                                  documentation, that could be subject to
                                                                  FOIA requests, that could be utilized to
                                                                  track Investigators activities during an
                                                                  investigation.
     Access Control      Although the PBX provides the            The PBX does have the ability of
                         capability to assign granularity of      establishing levels of password
                         access to various functions of the PBX   protection. However since there are only
                         the SEC only uses a single level of      three Telecommunications Staff at the
                         security that provides privileged        SEC and the work is accomplished in a
                         access to all system users.              cooperative manner, with one or more
                                                                  technicians handling various levels of
                                                                  each job, it has been determined that one
                                                                  password to permit access provides
                                                                  sufficient system security.

•   The project team identified numerous SEC managed (by OAPM and/or OIT) analog
    telephone lines that are connected directly to computer systems. Many of these systems
    provide a direct login prompt and do not provide strong authentication mechanisms that
    would minimize the potential for unauthorized access. Specifically, the project team
    obtained privileged access to the PBX Management Console via dial-up using PC AnyWhere
    with no requirement to authenticate (i.e., no user ID or password required). Once we notified
    the telecommunications group of this issue additional security controls were implemented
    and appear to be effective (Refer to section 2.2 for additional detail).

•   There does not appear to be an effective mechanism to effectively manage the maintenance
    and revocation of analog telephone lines. Without a clear understanding of who is
    responsible for an analog line and what the authorized purpose for the line’s use, there is a
    potential for misuse that may not be detected in a timely manner.

    Currently, the OAPM is responsible for assigning ownership of an analog line. This
    assignment is contingent on an E-mail request to OAPM and approval process from OIT.
    Once the analog line is assigned there is no periodic review nor is there documentation as to
    the specific owner of the line or its intended purpose. Individuals within the OAPM and OIT
    appear to have informal knowledge of who owns and is responsible for a significant number
    of lines, however there does not appear to be an effective process to:
        Reconcile existing analog lines to individual, group, or function in a timely manner
        Determine if an analog log is no longer in use
        Revoke/Disable access for analog line owners that leave the organization or no longer
        require access to the line.


1.4 Conclusion
Generally, the effectiveness of security and control over telecommunication lines leading into the
internal network infrastructure components is dependent, to a great extent, on the existence of
consistent and effective security administration and monitoring practices (e.g., system and user
management, change management, security management, intrusion detection, etc.) strong

                                                 -4-
authentication and authorization controls. The absence of any one of these may result in
increased risk of compromise to the integrity of the entire network infrastructure and application
systems. As such, it is imperative that robust change management practices, periodic software
integrity checking, effective management oversight, auditing and intrusion detection features,
and strong authentication and authorization capabilities exist.

It was noted during this review that PBX and analog telephone line security administration,
monitoring and access control practices require strengthening to assist in mitigating the risks
posed to electronic information resources. To address these deficiencies, the
Telecommunications and Information Security groups should work closely together to develop a
comprehensive security architecture. Recommendations to consider include:

•   Develop and implement a formalized process to manage the distribution and use of analog
    telephone lines. The process should include maintaining:
        An accurate inventory of line numbers
        Knowledge of who is assigned responsibility for each line
        An understanding of what each line will be used for
    Additionally, the process should also clearly articulate management responsibilities for all
    departments involved with the assignment and use of analog lines (e.g., telecommunications,
    corporate security, human resources, etc.).

•   Develop and implement a comprehensive monitoring process to detect fraudulent or
    unauthorized telephone activity. This may include the use of an automated software package
    that continuously monitors and tracks PBX activity or possibly involve reliance upon a
    manual process that requires the generation and review of daily, weekly, monthly reports to
    detect unusual or unauthorized activities.

     OAPM Response
     The SEC feels proper protection is provided, but will continue to be aware of the potential for intruder
     access and improve controls as determined necessary.

•   Develop comprehensive telecommunications security policies and baseline standards to
    establish an environment that adequately safeguards telecommunications resources. The
    policies and standards should address, among other things, the following:
        Strong authentication
        Access control
        Security administration
        Auditing, and monitoring

     OAPM Response
     The SEC feels proper protection is provided, but will continue to be aware of the potential for intruder
     access and improve controls as determined necessary.

•   Perform periodic assessments of telecommunications security to determine compliance with
    security policies and standards and to evaluate the effectiveness of controls in safeguarding
    telecommunications and other resources.


                                                    -5-
     OAPM Response
     The SEC feels proper protection is provided, but will continue to be aware of the potential for intruder
     access and improve controls as determined necessary.

•   Establish more effective authentication controls to restrict unauthorized access to information
    resources via analog lines and via the PBX.

     OAPM Response
     The SEC feels proper protection is provided, but will continue to be aware of the potential for intruder
     access and improve controls as determined necessary.

Lastly, the management should be aware that due to the nature of the telecommunication and
network technology utilized at the SEC and the regularity in which new vulnerabilities are
identified with information technology, results of test procedures performed may not have
revealed all potential vulnerabilities.




                                                    -6-
